        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act – Washington
State Energy Program




OAS-RA-12-10                        May 2012
                                 Department of Energy
                                      Washington, DC 20585


                                          May 5, 2012



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                          for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act – Washington State Energy
                         Program"

BACKGROUND

The Department of Energy's Office of Energy Efficiency and Renewable Energy (EERE)
provides grants to states, territories and the District of Columbia (states) to support various
energy priorities through the State Energy Program (SEP). These grants are awarded based on
population and energy consumption. In total, EERE allocated about $3.1 billion in American
Recovery and Reinvestment Act of 2009 grant funds to the states. These grants were designed to
help states create/retain jobs, reduce energy consumption, increase renewable energy generation
and reduce greenhouse gas emissions.

The Washington State Department of Commerce (WSDC) was granted $60.9 million in SEP
Recovery Act grant funds to invest in state-level energy efficiency and renewable energy
priorities; a 142-fold increase over its Fiscal Year 2009 SEP grant. This one-time award was to
be spent over a 3-year period ending April 30, 2012. WSDC used its grant funds to fund
51 projects in 5 major energy efficiency and renewable energy programs designated by the
Washington State Legislature. Specifically, it allocated $38.5 million for energy efficiency and
renewable energy loans and grants; $14.5 million for residential and commercial energy
efficiency upgrades; $5 million for energy efficiency credit enhancements; $500,000 for farm
energy assessments; $200,000 for a clean energy initiative; and, about $2.2 million in
administrative costs.

As part of the Office of Inspector General's strategy for reviewing the Department's
implementation of the Recovery Act, we initiated this review to determine whether WSDC's use
of Recovery Act funds was in accordance with Federal requirements and the Department's SEP
grant.

CONCLUSIONS AND OBSERVATIONS

WSDC had, for the most part, used SEP grant funds in accordance with Federal requirements
and the Department's SEP grant. However, we identified several issues that need to be addressed
to ensure that WSDC and its subrecipients fully comply with requirements and that the goals of
the Recovery Act are met. Specifically, our review of 10 of the 51 projects found that:

    •   Sub-grantees for 2 of the 10 projects reviewed did not provide adequate support for
        invoices totaling $646,633 in travel expenses, professional services and other expenses;
        and,

    •   Sub-grantees inconsistently reported jobs created or retained through the Recovery Act
        funding.

Finally, we noted that WSDC was unlikely to expend all of its Recovery Act funding for SEP
projects by the original April 30, 2012, grant deadline. WSDC requested, and the Department
granted, a 17-month extension of the grant terms until September 30, 2013.

                                Inadequate Cost Documentation

Our review of a judgmental sample of paid invoices for 10 projects disclosed that 2 of the
projects had $646,633 in expenditures related to professional services, travel and other expenses
that were not adequately supported. Failing to ensure that invoiced costs are fully supported
increases the risk that unallowable costs will be reimbursed. Specifically, our tests of 8
reimbursement requests for one project found that $530,302 (55 percent) of the total expenses
claimed for travel, professional services and other items, lacked sufficient supporting
documentation. Similarly, our review of 9 reimbursement requests for a second project revealed
that $116,331 (8 percent) of the total expenses claimed for travel and professional
services lacked sufficient supporting documentation. A breakdown by type of inadequately
supported costs disclosed that:

    •   Professional services invoices totaling $485,483 lacked sufficient supporting
        documentation or detail. For example, professional services invoices only contained
        statements such as "Professional Services for the period October 1 through October 31,
        2010" or "Consulting November 2010," with no other details. However, Federal
        Acquisition Regulation (FAR) 31.205-33 requires details of agreements; detailed billing
        to include time expended and nature of the actual services provided; and, the consultant's
        work products and related documents, such as trip reports indicating persons visited and
        subjects discussed, minutes of meetings, collateral memoranda and reports. Similarly,
        WSDC requires that, at a minimum, invoices should include the contract number, when
        the service was provided, a description of services provided or any goods received and
        approval for payment;

    •   Travel expense invoices amounting to $108,406 lacked sufficient supporting
        documentation to determine the need for, and purpose of, the trips. Both FAR 31.205-
        46 (a)(7) and WSDC regulations require a purpose for trips and supporting
        documentation of sufficient detail to determine whether the travel was essential to
        carrying out the necessary work of the agency. In addition, the majority of the travel
        expenses for one project were shown on expense reports but no receipts were provided
        for support. FAR 31.201-2 (d) requires that contractors appropriately account for costs

                                                2
        and maintain records, including supporting documentation adequate to demonstrate that
        costs claimed have been incurred, are allocable to the contract and comply with
        applicable cost principles; and,

    •   Other expenses of $52,744 submitted for one project lacked sufficient supporting
        documentation. These consisted mainly of expenses shown on expense reports, but
        contrary to FAR 31.201-2 (d), there was no documentation such as receipts to support
        them.

                                     Implementation Controls

The issues observed occurred, in part, because WSDC did not ensure that internal control
requirements were fully implemented. We determined that both Federal and WSDC regulations
contained sufficient detail and established adequate internal controls. The Washington State
Auditor's Office identified similar issues regarding invoice documentation in its June 13, 2011,
audit of WSDC's SEP. The State Auditor's review of invoices found that WSDC's State Energy
Office staff made payments on several contracts based on limited information. Specifically, the
State Auditor found two cases where the descriptions contractors submitted on the invoices were
at too high a level (i.e., salaries, benefits and travel) for determining task applicability to the
contracts' scope of work. As a result, the State Auditor could not confirm to which contracted
tasks these invoiced expenses related.

To address the State Auditor's concerns and ensure greater control over invoice documentation,
WSDC committed to: (1) monitor invoices prior to approval for payment to ensure all costs are
allowable and the appropriate level of documentation has been provided; (2) review all requests
for reimbursement and approval by the program manager, including consistency with the
statement of work and project activities, and ongoing status tracking; and, (3) transfer invoice
payment processing to WSDC's Contracts Administration Unit, with its experienced staff
dedicated to reviewing all requests for payments and the supporting documentation before
payments are approved. We believe these enhanced controls, if fully implemented, should help
ensure that WSDC does not approve payments for improper expenses. Notably, after we brought
the invoice documentation issue to WSDC's attention, it began taking action to obtain the
necessary documentation to support the paid invoices.

                                          Job Reporting

We also found that WSDC sub-grantees were not consistently calculating the full-time
equivalent positions created or retained by Recovery Act funding. Although WSDC officials
told us that they had informed subrecipients of the correct job reporting requirements in grants
and contracts, we found that five sub-grantees included subcontractors that received Recovery
Act funds in job creation calculations, while three sub-grantees had not done so. Both
Department SEP Notice 10-07A and Office of Management and Budget Memorandum M-09-21
state that a job for which the wages or salaries are either paid for with, or will be reimbursed
through, Recovery Act funding should be reported. However, the Department did not ensure that
WSDC complied with these requirements; thus, the numbers of jobs created or retained were
underreported in some instances.

                                                 3
                                        Spending Delays

We also determined that WSDC was unlikely to expend all of its SEP Recovery Act funds by the
original April 30, 2012, grant deadline. WSDC experienced delays due to various issues
associated with implementing Davis-Bacon Act requirements of the Recovery Act and obtaining
National Environmental Policy Act approvals for projects. As a result, over 3 years after the
Recovery Act was passed and with 1 month remaining in its grant, WSDC had spent only about
$45.5 million (75 percent) of its $60.9 million in Recovery Act SEP funding. WSDC
subsequently requested, and EERE approved, a 17-month extension to the grant period to
September 30, 2013. In the extension request, WSDC stated its belief that it will be able to
expend all but about $3.3 million (5 percent) of the Recovery Act funds by the original April 30,
2012, grant deadline.

RECOMMENDATIONS

To address the issues identified in our report, we recommend that the Assistant Secretary for
Energy Efficiency and Renewable Energy:

    1. Ensure that WSDC obtains adequate supporting documentation from sub-grantees to
       make a determination of allowability of the unsupported costs identified in the report;

    2. Ensure that WSDC fully implements internal control requirements;

    3. Ensure that WSDC Recovery Act job reporting is calculated consistently and accurately
       for sub-grantees; and,

    4. Continue to closely monitor the progress of WSDC's projects to ensure that Recovery Act
       goals are met, funds are properly and timely spent, and/or funds are returned to the U.S.
       Department of Treasury through the Department.

MANAGEMENT COMMENTS

Management concurred with the recommendations and stated that it is working with WSDC to
ensure that plans are implemented to address the report's recommendations. In particular,
management indicated that it will ensure that WSDC is committed to implementing and
executing the appropriate internal controls in the accounts payable process and that WSDC
recovers payments for any unallowable costs. Management also stated that SEP has monitored
WSDC through semi-annual and annual on-site monitoring trips and through weekly status calls
to ensure that WSDC is on-track to spend the Recovery Act funds in a timely manner.
Management commented that WSDC had spent 87.3 percent of its funds and, with a few
exceptions, is on track to have all projects completed by the end of the grant period. According
to management, WSDC requested and was granted an extension to spend the rest of its funds.
Management added that it will continue to monitor these areas in their regular oversight reviews.
Management's comments are included in Attachment 3.




                                                4
In separate comments, the Director, Washington State Energy Office, partially concurred with our
finding and indicated that WSDC has already taken steps to address the report's recommendations.
On the issue of unsupported costs, WSDC informed us that it had received additional
documentation and, upon review, confirmed that the costs questioned were allowable under the
terms of the agreement. Also, WSDC asserted that it had contacted recipients to confirm their
understanding of job reporting requirements and corrected the jobs reports for one of the recipients
indentified in this report. Finally, WSDC stated that it was on track to expend its grant funds
within the grant period, with the exception of 5 percent of the award that may be spent within the
recently granted time extension. WSDC's comments are included in Attachment 3.

AUDITOR RESPONSE

Management comments were responsive to our recommendations. We believe that the
corrective actions management proposes, if fully implemented, will correct the problems
identified in the report. With regard to spending delays, management stated that WSDC had
spent 87.3 percent of its funds and, with a few exceptions, is on track to have all projects
completed by the deadline. However, we noted that management considers funds spent when the
funds are obligated to the states, not when the states expend those funds. In fact, as of March 31,
2012, with a month left in the original grant period, WSDC reported it had expended
$45.5 million or 75 percent of its funds. As previously noted, WSDC requested, and EERE
approved, a 17-month extension to WSDC's grant to September 30, 2013.

Washington State's comments, for the most part, were also responsive to the recommendations.
We recognize that WSDC had taken action to strengthen controls. However, we were unable to
confirm that the costs identified in this report were adequately supported. The documentation
provided to us by WSDC consisted of SEP forms filled out by the sub-grantee after-the-fact and
lacked any corroboration other than the sub-grantee's signature on the form. Also, we did not
receive any additional documentation on the professional services expenses that we questioned
that comprise over 75 percent of the questioned expenses.

It is also noteworthy that WSDC took action to re-inform recipients of job reporting
requirements. However, we noted that while Washington State obtained corrected job reporting
information from one recipient who underreported jobs created, it did not obtain similar
information from the other two recipients whose job reporting figures we questioned, even
though all three recipients acknowledged they had been incorrectly reporting jobs created.

Attachments

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Chief of Staff




                                                5
                                                                                    Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the Washington State Department of
Commerce's (WSDC) use of funds under the American Recovery and Reinvestment Act of 2009
(Recovery Act) was in accordance with Federal requirements and the Department of Energy's
(Department) State Energy Program (SEP) grant.

SCOPE

The audit was performed from April 2011 to April 2012. We conducted work at WSDC and
Washington State University Extension Energy Program, located in Olympia, Washington. We
also conducted work at various sub-grantees throughout the State of Washington that included
Port Townsend Paper Company in Port Townsend; AltAir Fuels in Seattle; Demand Energy
Networks in Liberty Lake; Farm Power Lynden in Mount Vernon; Green Energy Today in
Richland; Gen-X Energy in Pasco; Avista in Spokane; SustainableWorks in Tukwila; and,
Opportunity Council in Bellingham. The audit scope was limited to WSDC's Recovery Act SEP.

METHODOLOGY

To accomplish the audit objective, we:

    •   Reviewed Federal laws and regulations, Department guidance, and Office of
        Management and Budget guidance and circulars related to SEP and Recovery Act;

    •   Reviewed SEP grants awarded to WSDC and sub-grants awarded to recipients of
        Recovery Act funds;

    •   Reviewed WSDC internal controls and sub-grantee internal controls;

    •   Reviewed prior Federal, State and grant audits related to Recovery Act SEP;

    •   Held discussions with officials at WSDC and the Washington State Auditor's Office;

    •   Interviewed officials at the Office of Energy Efficiency and Renewable Energy and
        National Energy Technology Laboratory;

    •   Reviewed the magnitude, method of operation, monitoring, project categories and
        individual projects of the WSDC SEP; and,

    •   Performed detailed testing, transaction testing and interviews for a sample of sub-
        grantees based on a risk assessment.



                                                6
                                                                        Attachment 1 (continued)


We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations to the extent necessary to
satisfy the audit objective. In particular, we assessed the Department's implementation of the
GPRA Modernization Act of 2010 and determined that it had established performance measures
for the management of the SEP and the Recovery Act. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. Finally, we did not rely on computer-processed data to accomplish our audit
objective.

An exit conference was held on April 17, 2012 with the Office of Energy Efficiency and
Renewable Energy and on April 19, 2012 with WSDC.




                                                7
                                                                                       Attachment 2


                                        PRIOR REPORTS


Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of Energy's
State Energy Program's internal control structures at the Federal, state and local levels. During our
audits, we have noted similar findings such as impediments that adversely impacted the State Energy
Program spending rates, inadequate flow down of Recovery Act provisions to subrecipients and
inadequate monitoring of subrecipients. However, it must be noted that these issues do not exist in
all the states we have audited. Our series of audit reports include the following:

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Arizona State Energy Program (OAS-RA-L-12-03, January 2012).

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       California State Energy Program (OAS-RA-11-10, July 2011).

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       New Jersey State Energy Program (OAS-RA-L-11-07, April 2011).

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Massachusetts State Energy Program (OAS-RA-11-06, March 2011).

   •   Audit Report on Management Controls over the Department of Energy's American
       Recovery and Reinvestment Act – Michigan State Energy Program (OAS-RA-10-18,
       September 2010).

   •   Audit Report on Status Report: The Department of Energy's State Energy Program
       Formula Grants Awarded under the American Recovery and Reinvestment Act (OAS-
       RA-10-17, September 2010).

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Georgia State Energy Program (OAS-RA-L-10-06, September 2010).

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Florida State Energy Program (OAS-RA-10-12, June 2010).

   •   Audit Report on Management Controls over the Department of Energy's American
       Recovery and Reinvestment Act – Louisiana State Energy Program (OAS-RA-10-09,
       May 2010).




                                                  8
                      Attachment 3


MANAGEMENT COMMENTS




         9
     Attachment 3 (continued)




10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
                                                                    IG Report No. OAS-RA-12-10

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
